No. __A__________

In the Supreme Court of the United States
___________________________________________
STEPHEN E. STOCKMAN,
Applicant,
v.
UNITED STATES 0F AMERICA.
Respondent.

___________________________________________
On Petition for a Writ of Certiorari to the United States
Court of Appeals for the Fifth Circuit
___________________________________________
APPENDIX TO
EMERGENCY APPLICATION FOR HOME CONFINEMENT
DURING THE COVID-19 PANDEMIC AND THIS COURT’S
RESOLUTION OF A TIMELY FILED PETITION FOR A WRIT
OF CERTIORARI TO THE FIFTH CIRCUIT
___________________________________________

LAWRENCE J. JOSEPH
Counsel of Record
1250 Connecticut Ave., NW, Suite 700-1A
Washington, DC 20036
Telephone: (202) 355-9452
Facsimile: (202) 318-2254
Email: lj@larryjoseph.com
Counsel for Applicant

APPENDIX
United States v. Stockman,
No. 4:17-CR-116-2 (S.D. Tex. Nov. 19, 2018) ................................................. 1a
United States v. Stockman,
947 F.3d 253 (5th Cir. 2020) (No. 18-20780) .................................................. 9a
United States v. Stockman,
No. 18-20780 (5th Cir. Mar. 2, 2020)............................................................ 27a
Memorandum from Attorney General to Director, Federal Bureau of
Prisons, Prioritization of Home Confinement As Appropriate in
Response to COVID-19 Pandemic (Mar. 26, 2020) ...................................... 29a
Memorandum from Attorney General to Director, Federal Bureau of
Prisons, Increasing Use of Home Confinement at Institutions
Most Affected by COVID-19 (Apr. 3, 2020) .................................................. 31a
Response from F.J. Garrido, Warden, Beaumont Federal Correctional
Complex, Federal Bureau of Prisons, to Stephen Stockman (Apr.
20, 2020). ....................................................................................................... 34a
Memorandum from David Brewer, Acting Senior Deputy Assistant
Director, Federal Bureau of Prisons, to Correctional Program
Administrators (undated) ............................................................................. 36a
Declaration of Patti Stockman. ............................................................................... 38a
Declaration of Lawrence J. Joseph. ........................................................................ 41a

ia

AO 245B

Case: 18-20780
Document: 00514971417 Page: 97 Date Filed: 05/24/2019
Case
4:17-cr-00116
(Rev. 09/08)
Judgment
in a Criminal Case Document 329 Filed in TXSD on 11/14/18 Page 1 of 8
Sheet 1

United States District Court

UNITED STATES DISTRICT COURT

Southern District of Texas

ENTERED

Southern District of Texas

November 19, 2018

Holding Session in Houston

David J. Bradley, Clerk

UNITED STATES OF AMERICA

JUDGMENT IN A CRIMINAL CASE

V.
STEPHEN E. STOCKMAN

CASE NUMBER: 4:17CR00116-002
USM NUMBER: 23502-479

 See Additional Aliases.
THE DEFENDANT:

Marlo Pfister Cadeddu
Defendant's Attorney

 pleaded guilty to count(s)
 pleaded nolo contendere to count(s)

which was accepted by the court.
1-5, 7-12, 14-22, 24, 27 and 28 on April 12, 2018
after a plea of not guilty.

 was found guilty on count(s)

The defendant is adjudicated guilty of these offenses:

Title & Section

Nature of Offense

Offense Ended

Count

18 U.S.C. §§ 1341, and
2
18 U.S.C. §§ 1341, and
2
18 U.S.C. §§ 1341, and
2
18 U.S.C. §§ 1341, and
2

Mail fraud

01/24/2013

1

Mail fraud

04/11/2012

2

Mail fraud

02/17/2014

3

Mail fraud

02/18/2014

4



See Additional Counts of Conviction.

The defendant is sentenced as provided in pages 2 through 8 of this judgment. The sentence is imposed pursuant to
the Sentencing Reform Act of 1984.

 The defendant has been found not guilty on count(s) 6.
 Count(s)

 is  are dismissed on the motion of the .

It is ordered that the defendant must notify the United States attorney for this district within 30 days of any change of name,
residence, or mailing address until all fines, restitution, costs, and special assessments imposed by this judgment are fully paid. If ordered to
pay restitution, the defendant must notify the court and United States attorney of material changes in economic circumstances.

November 7, 2018
Date of Imposition of Judgment

ReservedForJudgeSignature
Signature of Judge
LEE H. ROSENTHAL
CHIEF U. S. DISTRICT JUDGE
Name and Title of Judge

ReservedForSignDate
November 14, 2018
1a
Date

18-20780.1104

|

Case: 18-20780
AO 245B

Document: 00514971417 Page: 98 Date Filed: 05/24/2019
Document 329 Filed in TXSD on 11/14/18 Page 2 of 8

(Rev. 09/08)
Judgment
in a Criminal Case
Case
4:17-cr-00116
Sheet 1A

Judgment -- Page 2 of 8

DEFENDANT: STEPHEN E. STOCKMAN
CASE NUMBER: 4:17CR00116-002

ADDITIONAL COUNTS OF CONVICTION
Title & Section

Nature of Offense

Offense Ended

Count

18 U.S.C. §§ 1343, and
2
18 U.S.C. §§ 1343, and
2
18 U.S.C. §§ 1343, and
2
18 U.S.C. § 371, 52
U.S.C. §§ 30122 and
30109(d)(1)(D), and 18
U.S.C. § 1001(a)(2)
18 U.S.C. §§
1001(a)(2), and 2
18 U.S.C. §§
1001(a)(2), and 2
52 U.S.C. §§
30116(a)(1)(A),
30116(a)(7)(B)(i) and
30109(d)(1)(A)(i), and
18 U.S.C. § 2
18 U.S.C. §§ 1957, and
2
18 U.S.C. §§ 1957, and
2
18 U.S.C. §§ 1957, and
2
18 U.S.C. §§ 1957, and
2
18 U.S.C. §§ 1957, and
2
18 U.S.C. §§ 1957, and
2
18 U.S.C. §§ 1957, and
2
18 U.S.C. §§ 1957, and
2
18 U.S.C. §§ 1957, and
2

Wire fraud

03/28/2012

5

Wire fraud

07/02/2012

7

Wire fraud

05/13/2014

8

Conspiracy to make conduit contributions and false statements

04/30/2014

9

Making false statements

10/16/2013

10

Making false statements

10/19/2013

11

Making excessive contributions

02/28/2014

12

Money laundering

07/03/2012

14

Money laundering

07/24/2012

15

Money laundering

02/12/2013

16

Money laundering

02/12/2013

17

Money laundering

02/19/2013

18

Money laundering

10/16/2013

19

Money laundering

01/31/2014

20

Money laundering

01/31/2014

21

Money laundering

03/14/2014

22



See Additional Counts of Conviction.

2a

18-20780.1105

Case: 18-20780
AO 245B

Document: 00514971417 Page: 99 Date Filed: 05/24/2019
Document 329 Filed in TXSD on 11/14/18 Page 3 of 8

(Rev. 09/08)
Judgment
in a Criminal Case
Case
4:17-cr-00116
Sheet 1A -- Continued

Judgment -- Page 3 of 8

DEFENDANT: STEPHEN E. STOCKMAN
CASE NUMBER: 4:17CR00116-002

ADDITIONAL COUNTS OF CONVICTION
Title & Section

Nature of Offense

Offense Ended

Count

18 U.S.C. §§ 1957, and
2
18 U.S.C. §§
1956(a)(1)(B)(i) and 2
26 U.S.C. § 7206(1)

Money laundering

03/24/2014

24

Money laundering

03/24/2014

27

Filing false tax return

04/14/2014

28



See Additional Counts of Conviction.

3a

18-20780.1106

Case: 18-20780
AO 245B

Document: 00514971417 Page: 100 Date Filed: 05/24/2019
Document 329 Filed in TXSD on 11/14/18 Page 4 of 8

(Rev. 09/08)
Judgment
in a Criminal Case
Case
4:17-cr-00116
Sheet 2 -- Imprisonment

Judgment -- Page 4 of 8

DEFENDANT: STEPHEN E. STOCKMAN
CASE NUMBER: 4:17CR00116-002

IMPRISONMENT
The defendant is hereby committed to the custody of the United States Bureau of Prisons to be imprisoned for a
total term of 120 months.
ONE HUNDRED TWENTY (120) MONTHS as to each of Counts 1-5, 7, 8, 14-22, 24, and 27, SIXTY (60) MONTHS as to each of Counts
9-12, and THIRTY-SIX (36) MONTHS as to Count 28, all counts to run concurrently, for a total of ONE HUNDRED TWENTY (120)
MONTHS.



See Additional Imprisonment Terms.

 The court makes the following recommendations to the Bureau of Prisons:

That the defendant be designated to a facility that can accomodate the defendant's physical and mental needs, preferrably FMC Fort
Worth or FMC Butner, and that the defendant be transferred to such facility as quickly as possible.
 The defendant is remanded to the custody of the United States Marshal.

 The defendant shall surrender to the United States Marshal for this district:
.
 at
 a.m.  p.m. on
 as notified by the United States Marshal.
 The defendant shall surrender for service of sentence at the institution designated by the Bureau of Prisons:
.
 before 2 p.m. on
 as notified by the United States Marshal.
 as notified by the Probation or Pretrial Services Office.

RETURN
I have executed this judgment as follows:

Defendant delivered on _______________________________ to ___________________________________
at ______________________________, with a certified copy of this judgment.

UNITED STATES MARSHAL
By
DEPUTY UNITED STATES MARSHAL

4a

18-20780.1107

AO 245B

Case: 18-20780
Document: 00514971417 Page: 101 Date Filed: 05/24/2019
Case
4:17-cr-00116
(Rev. 02/18)
Judgment
in a Criminal Case Document 329 Filed in TXSD on 11/14/18 Page 5 of 8
Sheet 3 -- Supervised Release

Judgment -- Page 5 of 8

DEFENDANT: STEPHEN E. STOCKMAN
CASE NUMBER: 4:17CR00116-002

SUPERVISED RELEASE
Upon release from imprisonment you will be on supervised release for a term of: 3 years.
THREE (3) YEARS as to each of Counts 1-5, 7, 8, 14-22, 24, and 27, and ONE (1) YEAR as to Count 28, all to run concurrently, for a total
of THREE (3) YEARS.



See Additional Supervised Release Terms.

MANDATORY CONDITIONS
1. You must not commit another federal, state or local crime.
2. You must not unlawfully possess a controlled substance.
3. You must refrain from any unlawful use of a controlled substance. You must submit to one drug test within 15 days of release from
imprisonment and at least two periodic drug tests thereafter, as determined by the court.
 The above drug testing condition is suspended, based on the court's determination that you
pose a low risk of future substance abuse. (check if applicable)
4.  You must make restitution in accordance with 18 U.S.C. §§ 3663 and 3663A
or any other statute authorizing a sentence of restitution. (check if applicable)
5.  You must cooperate in the collection of DNA as directed by the probation officer. ( check if applicable)
6.  You must comply with the requirements of the Sex Offender Registration and Notification Act (34 U.S.C. § 20901, et seq.) as
directed by the probation officer, the Bureau of Prisons, or any state sex offender registration agency in the location where you reside, work,
are a student, or were convicted of a qualifying offense. (check if applicable)
7.  You must participate in an approved program for domestic violence. (check if applicable)
You must comply with the standard conditions that have been adopted by this court as well as with any other conditions on the attached page.

STANDARD CONDITIONS OF SUPERVISION


See Special Conditions of Supervision.
As part of your supervised release, you must comply with the following standard conditions of supervision. These conditions are imposed
because they establish the basic expectations for your behavior while on supervision and identify the minimum tools needed by probation
officers to keep informed, report to the court about, and bring about improvements in your conduct and condition.
1. You must report to the probation office in the federal judicial district where you are authorized to reside within 72 hours of your
release from imprisonment, unless the probation officer instructs you to report to a different probation office or within a different time frame.
2. After initially reporting to the probation office, you will receive instructions from the court or the probation officer
about how and when you must report to the probation officer, and you must report to the probation officer as instructed.
3. You must not knowingly leave the federal judicial district where you are authorized to reside without first getting permission from the
court or the probation officer.
4. You must answer truthfully the questions asked by your probation officer.
5. You must live at a place approved by the probation officer. If you plan to change where you live or anything about your living
arrangements (such as the people you live with), you must notify the probation officer at least 10 days before the change. If notifying
the probation officer in advance is not possible due to unanticipated circumstances, you must notify the probation officer within 72
hours of becoming aware of a change or expected change.
6. You must allow the probation officer to visit you at any time at your home or elsewhere, and you must permit the probation officer to
take any items prohibited by the conditions of your supervision that he or she observes in plain view.
7. You must work full time (at least 30 hours per week) at a lawful type of employment, unless the probation officer excuses you from
doing so. If you do not have full-time employment, you must try to find full-time employment, unless the probation officer excuses
you from doing so. If you plan to change where you work or anything about your work (such as your position or your job
responsibilities), you must notify the probation officer at least 10 days before the change. If notifying the probation officer at least 10
days in advance is not possible due to unanticipated circumstances, you must notify the probation officer within 72 hours of
becoming aware of a change or expected change.
8. You must not communicate or interact with someone you know is engaged in criminal activity. If you know someone has been convicted of
a felony, you must not knowingly communicate or interact with that person without first getting the permission of the probation officer.
9. If you are arrested or questioned by a law enforcement officer, you must notify the probation officer within 72 hours.
10. You must not own, possess, or have access to a firearm, ammunition, destructive device, or dangerous weapon (i.e., anything that was
designed, or was modified for, the specific purpose of causing bodily injury or death to another person such as nunchakus or tasers).
11. You must not act or make any agreement with a law enforcement agency to act as a confidential human source or informant without
first getting the permission of the court.
12. If the probation officer determines that you pose a risk to another person (including an organization), the probation officer may
require you to notify the person about the risk and you must comply with that instruction. The probation officer may contact the
person and confirm that you have notified the person about the risk.
13. You must follow the instructions of the probation officer related to the conditions of supervision.

5a

18-20780.1108

AO 245B

Case: 18-20780
Document: 00514971417 Page: 102 Date Filed: 05/24/2019
Case
4:17-cr-00116
(Rev. 09/08)
Judgment
in a Criminal Case Document 329 Filed in TXSD on 11/14/18 Page 6 of 8
Sheet 3C -- Supervised Release

Judgment -- Page 6 of 8

DEFENDANT: STEPHEN E. STOCKMAN
CASE NUMBER: 4:17CR00116-002

SPECIAL CONDITIONS OF SUPERVISION
You must participate in a mental-health treatment program and follow the rules and regulations of that program. The probation officer, in
consultation with the treatment provider, will supervise your participation in the program, including the provider, location, modality, duration,
and intensity. You must pay the cost of the program, if financially able.
You must take all mental-health medications that are prescribed by your treating physician. You must pay the costs of the medication, if
financially able.
You must provide the probation officer with access to any requested financial information and authorize the release of any financial
information. The probation office may share financial information with the U.S. Attorney's Office.
You must not incur new credit charges or open additional lines of credit without the approval of the probation officer.



See Additional Special Conditions of Supervision.

6a

18-20780.1109

AO 245B

Case: 18-20780
Document: 00514971417 Page: 103 Date Filed: 05/24/2019
Case
4:17-cr-00116
(Rev. 09/08)
Judgment
in a Criminal Case Document 329 Filed in TXSD on 11/14/18 Page 7 of 8
Sheet 5 -- Criminal Monetary Penalities

Judgment -- Page 7 of 8

DEFENDANT: STEPHEN E. STOCKMAN
CASE NUMBER: 4:17CR00116-002

CRIMINAL MONETARY PENALTIES
The defendant must pay the total criminal monetary penalties under the schedule of payments on Sheet 6.
Assessment
Fine
Restitution
$2,300.00
$1,014,718.51
TOTALS
A $100 special assessment is ordered as to each of Counts 1-5, 7, 8, 14-22, 24, 27 and 28, for a total of $2,300.



See Additional Terms for Criminal Monetary Penalties.

 The determination of restitution is deferred until

. An Amended Judgment in a Criminal Case (AO 245C)

will be entered after such determination.

 The defendant must make restitution (including community restitution) to the following payees in the amount listed below.
If the defendant makes a partial payment, each payee shall receive an approximately proportioned payment, unless specified otherwise in
the priority order or percentage payment column below. However, pursuant to 18 U.S.C. § 3664(i), all nonfederal payees must be paid
before the United States is paid.
Name of Payee
The Rothschild Art Foundation
The Rothschild Charitable Foundation Inc.
Ed Uihlein Family Foundation
Ed Uihlein



Total Loss*

Restitution Ordered
$385,000.00
65,000.00
350,000.00
214,718.51

Priority or Percentage

See Additional Restitution Payees.

$0.00

TOTALS

$1,014,718.51

 Restitution amount ordered pursuant to plea agreement $
 The defendant must pay interest on restitution and a fine of more than $2,500, unless the restitution or fine is paid in full before the
fifteenth day after the date of the judgment, pursuant to 18 U.S.C. § 3612(f). All of the payment options on Sheet 6 may be subject
to penalties for delinquency and default, pursuant to 18 U.S.C. § 3612(g).

 The court determined that the defendant does not have the ability to pay interest and it is ordered that:
the interest requirement is waived for the  fine  restitution.
the interest requirement for the  fine  restitution is modified as follows:
 Based on the Government's motion, the Court finds that reasonable efforts to collect the special assessment are not likely to be effective.
Therefore, the assessment is hereby remitted.

* Findings for the total amount of losses are required under Chapters 109A, 110, 110A, and 113A of Title 18 for offenses committed on or
after September 13, 1994, but before April 23, 1996.

7a

18-20780.1110

AO 245B

Case: 18-20780
Document: 00514971417 Page: 104 Date Filed: 05/24/2019
Case
4:17-cr-00116
(Rev. 09/08)
Judgment
in a Criminal Case Document 329 Filed in TXSD on 11/14/18 Page 8 of 8
Sheet 6 -- Schedule of Payments

Judgment -- Page 8 of 8

DEFENDANT: STEPHEN E. STOCKMAN
CASE NUMBER: 4:17CR00116-002

SCHEDULE OF PAYMENTS
Having assessed the defendant's ability to pay, payment of the total criminal monetary penalties is due as follows:
A  Lump sum payment of $2,300.00
due immediately, balance due
not
later
than
, or

 in accordance with  C,  D,  E, or  F below; or

 Payment to begin immediately (may be combined with  C,  D, or  F below); or
C  Payment in equal
installments of
over a period of
B

, to commence

days

, to commence

days

after the date of this judgment; or

D

 Payment in equal

E

 Payment during the term of supervised release will commence within

F

 Special instructions regarding the payment of criminal monetary penalties:

installments of
after release from imprisonment to a term of supervision; or

over a period of

days after release from imprisonment. The court
will set the payment plan based on an assessment of the defendant's ability to pay at that time; or
Payable to: Clerk, U.S. District Court, Attn: Finance, P.O. Box 61010, Houston, TX 77208
Balance due in 50% of any wages earned while in prison in accordance with the Bureau of Prisons' Inmate Financial
Responsibility Program. Any balance remaining after release from imprisonment shall be due in monthly installments
of no less than $500 to commence 60 days after release from imprisonment to a term of supervision.
* In reference to the amount below, the Court-ordered restitution shall be joint and several with any co-defendant who
has been or will be ordered to pay restitution under this docket number.

Unless the court has expressly ordered otherwise, if this judgment imposes imprisonment, payment of criminal monetary penalties is due
during imprisonment. All criminal monetary penalties, except those payments made through the Federal Bureau of Prisons' Inmate Financial
Responsibility Program, are made to the clerk of the court.
The defendant shall receive credit for all payments previously made toward any criminal monetary penalties imposed.

 Joint and Several
Case Number
Defendant and Co-Defendant Names
(including defendant number)
SEE COURT'S ORDER ABOVE *



Total Amount

Joint and Several
Amount

Corresponding Payee,
if appropriate

See Additional Defendants and Co-Defendants Held Joint and Several.

 The defendant shall pay the cost of prosecution.
 The defendant shall pay the following court cost(s):
 The defendant shall forfeit the defendant's interest in the following property to the United States:

As set forth in the order of forfeiture executed by this Court on July 3, 2018, and as amended following the sentencing hearing on
November 7, 2018.



See Additional Forfeited Property.

Payments shall be applied in the following order: (1) assessment, (2) restitution principal, (3) restitution interest, (4) fine principal,
(5) fine interest, (6) community restitution, (7) penalties, and (8) costs, including cost of prosecution and court costs.
8a
18-20780.1111

Case: 18-20780

Document: 00515267269

Page: 1

Date Filed: 01/10/2020

IN THE UNITED STATES COURT OF APPEALS
United States Court of Appeals
FOR THE FIFTH CIRCUIT
Fifth Circuit

FILED
No. 18-20780

January 10, 2020
Lyle W. Cayce
Clerk

UNITED STATES OF AMERICA,
Plaintiff - Appellee
v.
STEPHEN E. STOCKMAN,
Defendant - Appellant

Appeal from the United States District Court
for the Southern District of Texas
Before JOLLY, GRAVES, and HIGGINSON, Circuit Judges.
E. GRADY JOLLY, Circuit Judge:
Stephen E. Stockman served four years in Congress and now faces ten
years in prison. He seeks to avoid this career detour. He must admit that a
jury convicted him on twenty-three felony counts after the government accused
him, inter alia, of defrauding philanthropists and using their money to finance
his personal life and political career.

Acknowledging the convictions,

Stockman argues, nevertheless, that prison should not be the next item on his
résumé because the convictions were tainted by improper jury instructions and
unsupported by the evidence. We affirm.

9a

Case: 18-20780

Document: 00515267269

Page: 2

Date Filed: 01/10/2020

No. 18-20780
I.
Stockman served two nonconsecutive terms in the United States House
of Representatives, first from 1995 to 1997 and then from 2013 to 2015. During
his first term, Stockman began working with an organization called the
“Leadership Institute,” where he became acquainted with Jason Posey and
Thomas Dodd, two members of its staff. His relationships with these two men
would grow and then wither.

Stockman employed Posey and Dodd as

campaign staffers, congressional aides, and business consultants. Their most
recent roles were as witnesses against Stockman.
Posey and Dodd worked with Stockman to raise money for various
“nonprofit” entities between 2010 and 2014, the period in which Stockman is
alleged to have orchestrated a criminal scheme to obtain charitable donations
under false pretenses and to then enrich himself with the proceeds. Though
initially named as codefendants, Posey and Dodd abandoned Stockman,
pleaded guilty, and testified against him. Their testimony helped reveal the
details of the scheme, which unfolded in four parts, targeted two donors, and
ultimately netted over a million dollars for Stockman and his aides.
The 2010 Rothschild Donations
Stockman’s scheme began in May 2010, when Stockman and Dodd
started soliciting Stanford Z. Rothschild, Jr., an elderly donor acting through
his foundation. Over the next five months, Stockman and Dodd managed to
persuade Rothschild to donate $285,000 to the Ross Center, a Section 501(c)(3) 1
nonprofit organization under Stockman’s control. Rothschild was told that his
money would fund “voter education material” for Jewish voters in Florida.
Dodd testified that “voter education material[s]” are print publications that

This case involves so-called “501(c)(3)” and “501(c)(4)” organizations. Those
designations refer to provisions of the Internal Revenue Code that give tax-exempt status to
qualifying nonprofit entities. See 26 U.S.C. §§ 501(c)(3)–(4).
1

2

10a

Case: 18-20780

Document: 00515267269

Page: 3

Date Filed: 01/10/2020

No. 18-20780
“educate voters in the general public about public policy positions and public
policy issues.” Specifically, Rothschild was pitched on a book about radical
Islam that would be mailed to voters in the lead-up to the 2010 midterm
elections.
The deal was finalized only after Stockman assured Rothschild that his
money “was to be spent for public policy [and] voter education that was 100
percent compliant with 501(c)(3) rules.” With this reference to the “501(c)(3)
rules,” Stockman appears to have promised that he would spend Rothschild’s
money primarily (if not exclusively) in furtherance of the educational goals laid
out in the pitch. See 26 U.S.C. § 501(c)(3) (tax-exempt organizations must be
operated “exclusively for . . . charitable . . . or educational purposes”).
But this promise soon vanished. Instead of “voter education materials,”
Stockman spent the 2010 Rothschild funds charitably on himself, educating
himself at Disneyland and other amusement parks, at spas, and riding in hot
air balloons. Stockman’s charity to himself was generous; it further included
paying his business expenses, including an abortive venture in South Sudan
on which Stockman spent about $13,000 of the 2010 Rothschild funds.
Stockman made the trip to South Sudan hoping to win a lucrative lobbying
contract with a “performance bonus” that would allow him to take a percentage
of any foreign aid appropriated by Congress.
Stockman failed to mail any “voter education material” as promised.
The 2011–2012 Rothschild Donations
Stockman and Dodd were not finished with Rothschild.

In 2011,

Stockman decided to run for a second term in Congress. This time, rather than
pitch a “voter education” project aimed at indirectly influencing elections,
Stockman and Dodd requested a loan for Stockman’s campaign. Rothschild
refused. Instead, he agreed to give in the same manner as before, i.e., to
“mak[e] donations from his foundation . . . to be used for voter education in
3
11a

Case: 18-20780

Document: 00515267269

Page: 4

Date Filed: 01/10/2020

No. 18-20780
accordance with the 501(c)(3) rules.”

Stockman again promised to honor

Rothschild’s wishes, so Rothschild made another series of large donations, this
time totaling $165,000, to the Ross Center and Life Without Limits (another
Stockman-controlled nonprofit entity).
As before, Stockman repurposed the funds.

He spent thousands on

personal goods, including airline tickets, fast food, and gasoline.

He also

diverted 80% of a $100,000 donation to his congressional campaign account. It
was later reported to the Federal Election Commission (FEC) that this deposit
was a personal loan from Stockman to his own campaign.
Stockman agrees that most of the 2011–2012 Rothschild funds were, in
the words of his brief, “transferred to other accounts controlled by Stockman,
including the account for his campaign committee.” Stockman nevertheless
reported in a letter to Rothschild that the funds had “helped [Life Without
Limits] educate many people last year in traditional American values.” The
nature of those “values” was not described.
The 2013 Uihlein Donation
In January 2013, Stockman, now a member of Congress, shifted his
attention to Richard Uihlein, a Wisconsin businessman whose foundation has
donated millions of dollars to nonprofit organizations that share his
conservative values. Stockman and Dodd pitched Uihlein on “Freedom House,”
a prospective residential facility in Washington, D.C. that would house interns
and provide a home base for a non-existent nonprofit called the “Congressional
Freedom Foundation.” Uihlein agreed to endow the project with $350,000 in
seed money. The seed was not planted as promised, and the project died in
silence.

But the seed money survived to promote a new development in

Stockman’s political career: he had decided to run for the United States Senate
in 2014.
4
12a

Case: 18-20780

Document: 00515267269

Page: 5

Date Filed: 01/10/2020

No. 18-20780
Thus, as with the Rothschild donations, Stockman used the 2013 Uihlein
funds to meet his personal and (especially) his political needs. For example,
Stockman spent over $40,000 on a plan to surveil a conservative Texas
politician whom Stockman believed to be a likely opponent in a future primary.
Stockman also gave thousands of dollars to his cohorts, Dodd and Posey, so
that they, in turn, could “donate” the money to Stockman’s Senate campaign;
the donations were falsely attributed to Dodd’s mother and Posey’s father in
FEC filings. In sum, the 2013 Uihlein donation was spent in a long sequence
of varying expenditures, including $5,000 to pay the rent on Stockman’s
campaign office, more than $30,000 to pay off Dodd’s credit card debt, and over
$20,000 to patronize a publishing business owned by Stockman’s brother.
Posey testified that no money was actually spent on the project pitched
to Uihlein. Even Stockman agrees that no property was ever acquired for such
a project.

Nonetheless, Stockman’s team reported to Uihlein that his

generosity had allowed Life Without Limits to support Freedom House. The
2014 letter that makes this claim also goes on to advise Uihlein that his
“continued support is crucial to our mission.”
The 2014 Uihlein Donation
By early 2014, Stockman was in the midst of his primary challenge to
incumbent United States Senator John Cornyn. Stockman met with Kurt
Wagner, the president of a direct mail company, and the two men discussed
Stockman’s plan to mail Texas voters a faux newspaper called The
Conservative News on the eve of the Republican primary. The Conservative
News accuses Senator Cornyn of “falsifying ethics reports to hide income,”
“lying to voters,” and filing “false donor reports at least 121 times.”

By

contrast, The Conservative News takes care to highlight Stockman’s policy
positions and legislative actions with bold headlines like “Stockman Kills
5
13a

Case: 18-20780

Document: 00515267269

Page: 6

Date Filed: 01/10/2020

No. 18-20780
Cornyn-Backed Senate Amnesty Bill” and “Stockman’s Sanctity of Life Act
Overturns Roe v. Wade.”
To finance this direct mail campaign, Stockman instructed Wagner to
seek a new donation from Uihlein. Posey also called Uihlein to help induce a
donation. Stockman dictated some of the contents of a solicitation letter but
told Wagner that the letter would “need[] to come from somebody else, not
[Stockman] directly.” The letter, which purported to seek financing for an
independent expenditure by the “Center for the American Future,” induced
Uihlein to give $450,571.65. Uihlein testified that he would not have donated
the money if he had known of Stockman’s involvement. Posey testified that
the Center for the American Future was under Stockman’s control.
The 2014 Uihlein funds were used to print and distribute hundreds of
thousands of copies of The Conservative News. Stockman called off the direct
mail campaign shortly before the primary, at which point only $214,718.51
remained of Uihlein’s 2014 donation.

At Stockman’s direction, Posey

proceeded to use these remaining funds to pay bills related to Stockman’s
Senate campaigns, including both his Texas campaign and a prospective
campaign in Alaska. Posey also testified that Stockman instructed him to flee
to Egypt with some of the remaining funds, using them to pay for flights and
other travel expenses. 2
II.
In March 2017, Stockman was indicted on four counts of mail fraud, four
counts of wire fraud, two counts of making false statements in FEC filings,
eleven counts of money laundering, one count of conspiracy to make conduit

By this time, Stockman had wind that he was the target of an FBI investigation. He
thought that, by sending Posey to Cairo with the 2014 Uihlein funds, he could evade a
potential asset freeze or forfeiture.
2

6

14a

Case: 18-20780

Document: 00515267269

Page: 7

Date Filed: 01/10/2020

No. 18-20780
campaign contributions and false statements, one count of causing an
excessive campaign contribution, and one count of filing a false tax return.
The district court denied Stockman’s motions to dismiss the indictment
and to strike surplusage. The case proceeded to a three-week jury trial, after
which Stockman was convicted on all counts but one. 3 The district court denied
Stockman’s motions for judgment of acquittal, and later sentenced Stockman
to ten years in prison and three years of supervised release. Stockman was
also ordered to pay restitution in the amount of $1,014,718.51. He timely has
appealed.
III.
Stockman now argues that the district court erred by issuing problematic
jury instructions, by denying Stockman’s motions for judgment of acquittal
under Federal Rule of Criminal Procedure 29, and by denying his motion to
dismiss the indictment.

With respect to the jury instructions, Stockman

contends that the district court erred by defining 501(c)(3) and 501(c)(4)
organizations in the charge and by failing to instruct the jury on Stockman’s
“good faith” defense to the tax and campaign finance counts. With respect to
the denial of his Rule 29 motions, Stockman argues that the government failed
to prove the existence of a fraudulent “scheme” devised with the requisite
intent to defraud. Stockman also makes three arguments challenging his
conviction for causing an excessive campaign contribution under Count 12 of
the indictment, all of which essentially assert that the district court erred by
failing to recognize that “express advocacy” is a necessary element of the

Stockman was acquitted on Count 6, a wire fraud charge related to the Rothschild
donations.
3

7

15a

Case: 18-20780

Document: 00515267269

Page: 8

Date Filed: 01/10/2020

No. 18-20780
offense. In total, Stockman’s brief presents six alleged errors infecting one or
more of his convictions. 4 We find that each claim lacks merit.
A.
Stockman argues that his convictions for mail and wire fraud cannot
stand because the district court issued “improper and unnecessary”
instructions that confused the jury.

Specifically, Stockman draws our

attention to a section of the jury charge that defines 501(c)(3) and 501(c)(4)
organizations in the following manner:
A 501(c)(3) organization is a nonprofit corporation, fund, or foundation
organized and operated exclusively for religious, charitable, scientific,
or educational purposes.
Section 501(c)(3) organizations are generally exempt from federal
taxation, and donations to [] these entities may be tax deductible. If an
organization is classified as a 501(c)(3) organization, none of its net
earnings may benefit any private shareholder or individual. A Section
501(c)(3) organization may not participate or intervene in any political
campaign on behalf of or [in] opposition to any candidate for public
office.
A Section 501(c)(4) organization is a nonprofit organization operated
exclusively for the promotion of social welfare. . . . Section 501(c)(4)
organizations are also generally exempt from federal taxation. A
Section 501(c)(4) organization may compensate employees for work
actually performed, but the net earnings of a Section 501(c)(4)
organization must be devoted exclusively to charitable, educational, or
recreational purposes. The net earnings of a Section 501(c)(4)
organization may not benefit any private shareholder or individual.
Arguably, Stockman has also preserved a complaint about the district court’s
disjunctive Count 12 jury instructions. Stockman appears to argue that the district court
erred by allowing the jury to convict Stockman for inducing Uihlein’s 2014 expenditure on
advertisements “advocating Mr. Stockman’s election or attacking Mr. Stockman’s opponent”
because the indictment alleged a conjunction. But the government does not heighten its
burden of proof by pleading criminal acts conjunctively. See United States v. Holley, 831 F.3d
322, 328 n.14 (5th Cir. 2016). Here, the government was not required to prove that Uihlein’s
money was spent on advertising “advocating for Stockman’s election and attacking
Stockman’s opponent.” We thus decline to find error in the district court’s disjunctive
language.
4

8

16a

Case: 18-20780

Document: 00515267269

Page: 9

Date Filed: 01/10/2020

No. 18-20780
At oral argument, defense counsel represented that Stockman
principally objects that this language of the instructions was “irrelevant” and
“unnecessary.”

Stockman concedes, however, that no contemporaneous

objection was made at trial; instead, he now argues that the district court
should have excluded the 501(c)(3) and 501(c)(4) definitions from the charge
sua sponte.
Given Stockman’s failure to object at trial, our review is for plain error.
United States v. Saldana, 427 F.3d 298, 303–04 (5th Cir. 2005). Stockman
must demonstrate “(1) that an error occurred; (2) that the error was plain,
which means clear or obvious; (3) [that] the plain error [would] affect [his]
substantial rights; and (4) [that] not correcting the error would seriously affect
the fairness, integrity, or public reputation of judicial proceedings.” Id. at 304
(quotation omitted).
We are not convinced that the district court erred by defining 501(c)(3)
and 501(c)(4) organizations in the charge, but, in any event, no such error was
sufficiently “clear or obvious” to survive plain error review.

Many of the

witnesses discussed 501(c)(3) and 501(c)(4) organizations in their testimony,
and some of that testimony even went directly to the elements of mail and wire
fraud. Stockman has not cited a truly analogous case, and we are not aware of
one. We have said that an “error cannot be plain where there is no controlling
authority on point and where the most closely analogous precedent leads to
conflicting results.” United States v. Gomez, 706 F. App’x 172, 177 (5th Cir.
2017) (quoting United States v. De La Fuente, 353 F.3d 766, 769 (9th Cir.
2003)). Similarly, when any analogy to existing authority would be strained,
the district court’s actions cannot amount to plain error.
Apart from his objection that the 501(c)(3) and 501(c)(4) definitions were
“unnecessary,”

Stockman

also

argues

that

the

definitions,

though

undisputedly drawn from the text of the Internal Revenue Code, misled the
9
17a

Case: 18-20780

Document: 00515267269

Page: 10

Date Filed: 01/10/2020

No. 18-20780
jury by framing the obligations of 501(c)(3) and 501(c)(4) organizations in
absolute terms. See, e.g., St. David’s Health Care Sys. v. United States, 349
F.3d 232, 235 (5th Cir. 2003) (suggesting that tax-exempt organizations must
be operated primarily, rather than exclusively, for an exempt purpose). But,
again, we cannot agree that the district court’s statutory instructions merit
reversal under the plain error standard. An instruction that mirrors relevant
statutory text “will almost always convey the statute’s requirements,” United
States v. Lebowitz, 676 F.3d 1000, 1014 (11th Cir. 2012), and Stockman has not
identified any authority rendering it “clear or obvious” that a district court’s
jury instructions must go beyond the language of the statute in this context.
B.
Stockman next seeks to reverse his conviction for causing an excessive
campaign contribution in the form of a coordinated expenditure, an offense
covered by Count 12 of the indictment. Count 12 alleges that Stockman, acting
through various agents, induced Uihlein to spend over $450,000 on The
Conservative News, a political communication promoting the Stockman
campaign. The government argues that, because Stockman was involved in
requesting and spending the money for this project, Uihlein’s $450,000
payment was a “coordinated expenditure” under the Federal Election
Campaign Act, 52 U.S.C. § 30101 et seq. (FECA). 5

FECA treats “coordinated” expenditures like “campaign contributions,” placing an
upper limit on the amount of money that donors may spend on them. The government’s
position is that Stockman, having willfully caused Uihlein to spend more than $25,000 on a
coordinated communication, is subject to the especially severe criminal penalties applicable
to those who make campaign contributions in excess of $25,000. See 52 U.S.C. §§
30116(a)(1)(A) (establishing upper limit on campaign contributions), 30109(d)(1)(A)(i)
(authorizing extra punishment for campaign contributions in excess of $25,000),
30116(a)(7)(B)(i) (equating coordinated expenditures with campaign contributions); 18 U.S.C.
§ 2(b) (authorizing punishment “as a principal” for those who “willfully cause[] an act to be
done which if directly performed by [them] or [others] would be an offense”).
5

10

18a

Case: 18-20780

Document: 00515267269

Page: 11

Date Filed: 01/10/2020

No. 18-20780
Stockman does not deny that, if the Uihlein donation were an
“expenditure,” it would be a “coordinated” expenditure of over $450,000, the
equivalent of a campaign contribution well beyond statutory limits. Indeed, he
could not argue otherwise: the evidence shows that Stockman at the very least
“cooperat[ed]” with Uihlein and Wagner’s distribution of The Conservative
News. See 52 U.S.C. § 30116(a)(7)(B)(i) (coordinated expenditures are those
made in “cooperation, consultation, or concert with” a candidate or his
campaign committee).

For example, Wagner testified that mailing The

Conservative News was Stockman’s idea, that Stockman supervised him once
distribution was underway, and that Stockman dictated some of the letter that
secured funding from Uihlein.
Instead, Stockman’s appellate challenges to the conviction turn on the
word “expenditure.” Stockman argues that, in Buckley v. Valeo, 424 U.S. 1
(1976), the “Supreme Court cabined FECA’s definition of ‘expenditure’ to
encompass only ‘funds used for communications that expressly advocate for the
election or defeat of a clearly identified candidate.’” Such “express advocacy”
entails the use of “words [like] ‘vote for,’ ‘elect,’ ‘support,’ ‘cast your ballot for,’
‘Smith for Congress,’ ‘vote against,’ ‘defeat,’ [and] ‘reject.’” Buckley, 424 U.S.
at 44 & n.52. Stockman maintains that to effect a regulated “expenditure,”
donors must spend their money on communications containing these “magic
words.” It is clear and uncontested that The Conservative News does not
contain direct instructions to “vote for” or “defeat” any candidate. It would
follow, Stockman argues, that Uihlein did not effect an “expenditure” when he
funded The Conservative News.
But the Supreme Court rejected this reading of FECA in McConnell v.
FEC, 540 U.S. 93 (2003), overruled on other grounds by Citizens United v. FEC,
558 U.S. 310 (2010)). In McConnell, the Supreme Court considered precisely
the statutory language at issue here, namely the rule (now codified at 52 U.S.C.
11
19a

Case: 18-20780

Document: 00515267269

Page: 12

Date Filed: 01/10/2020

No. 18-20780
§ 30116(a)(7)(B)(i)) that “expenditures . . . in cooperation, consultation, or
concert with” a candidate are to be considered the equivalent of campaign
contributions and restricted accordingly. See McConnell, 540 U.S. at 202. The
McConnell Court explained that a post-Buckley statutory enactment had
“clarifie[d] the scope” of this language, “pre-empt[ing]” a possible claim that
“coordinated expenditures for communications that avoid express advocacy
cannot be counted as contributions.” 540 U.S. at 202. In other words, the Court
held that the presence of express advocacy is not a prerequisite of the “settled”
rule that when expenditures are “controlled by or coordinated with the
candidate and his campaign[,] [they] may be treated as indirect contributions
subject to FECA’s . . . amount limitations.” Id. at 219 (cleaned up).
Stockman seeks to distinguish McConnell on the ground that “McConnell
held . . . the express advocacy requirement for expenditures . . . preempted only
with respect to . . . narrowly defined ‘electioneering communication[s].’” 6 Not
so.

The relevant portion of McConnell deals separately with two distinct

subsections of FECA, one pertaining to electioneering communications and the
other to expenditures “more generally.” 540 U.S. at 202. The latter subsection,
not the former, was the focus of the Court’s “preemption” comment. Id. We
reject Stockman’s construction of the statute. 7

An “electioneering communication” is “any broadcast, cable, or satellite
communication that refers to a clearly identified candidate for federal office and is made
within 30 days of a primary or 60 days of a general election.” Citizens United, 558 U.S. at
321 (cleaned up). The McConnell decision is largely, but not exclusively, concerned with
Congress’s regulation of these communications. See 540 U.S. at 189–02.
7 Stockman also attempts to escape McConnell by invoking Center for Individual
Freedom v. Carmouche, 449 F.3d 655 (5th Cir. 2006), and Chamber of Commerce of the United
States v. Moore, 288 F.3d 187 (5th Cir. 2002). But neither case analyzed whether Buckley’s
limiting construction should apply to coordinated expenditures. Carmouche interpreted a
Louisiana statue that “link[ed] disclosure requirements for expenditures made by
independent individuals” to language that the Supreme Court narrowed in Buckley.
Carmouche, 449 F.3d at 664 (emphasis added). Moore found that the relevance of express
advocacy was clear because the Mississippi statute under scrutiny had “essentially adopted
6

12

20a

Case: 18-20780

Document: 00515267269

Page: 13

Date Filed: 01/10/2020

No. 18-20780
C.
We next consider Stockman’s argument that his tax and campaign
finance convictions under Counts 10, 11, 12, and 28 of the indictment were
tainted by the district court’s refusal to instruct on “good faith.” Stockman
points to evidence that he relied on an accountant who “wrongly advised him
that having aides contribute money to his congressional campaign in the name
of their parents was permissible.” He also points to evidence that Stockman
and Posey intentionally omitted words of express advocacy from The
Conservative News in order to comply with FECA. He asserts that “[i]n this
context and where willfulness is required, a good faith instruction should have
been given.”
Again, we disagree. Although the parties dispute the standard of review
applicable to the district court’s refusal to instruct on good faith, decisions of
this court and the Supreme Court show that the refusal was not erroneous,
whether reviewed de novo or for plain error. See United States v. Pomponio,
429 U.S. 10, 11–12 (1976); United States v. Simkanin, 420 F.3d 397, 409–11
(5th Cir. 2005). Stockman argues that a good faith instruction should have
been issued because the tax and campaign finance offenses in question all
require a showing of “willfulness.”
But it is precisely that requirement that renders any such instruction
unnecessary. The Supreme Court held in Pomponio that an additional good
faith instruction is not required when the charge already requires proof of
“willfulness,” properly cabined to cover only “voluntary, intentional violation[s]
of . . . known legal dut[ies].” 429 U.S. at 12 (quotation omitted). In so holding,
the Court gave its approval to a charge that did not instruct on good faith but

the language” of the Buckley limiting construction. Moore, 288 F.3d at 196. These cases are
distinguishable and neither one casts doubt on the conclusions we draw from McConnell.

13

21a

Case: 18-20780

Document: 00515267269

Page: 14

Date Filed: 01/10/2020

No. 18-20780
did instruct on the need for proof of a “willful” act, meaning an act “done
voluntarily and intentionally and with the specific intent to do something
which the law forbids, that is to say with [the] bad purpose either to disobey or
disregard the law.” Id. at 11–12 (quotation omitted). Drawing from Pomponio,
we held in Simkanin that a “specific instruction” on good faith is not required
when the concept is sufficiently subsumed by a general instruction on
“willfulness.” 420 F.3d at 409–11. Simkanin, like Pomponio, approved of
instructions alerting the jury to the fact that a “willful” act is done “voluntarily
and deliberately,” with the intention of “violat[ing] a known legal duty.” Id.
at 409–10.
Here, the district court’s instructions mirrored those in Pomponio and
Simkanin. With respect to Counts 10, 11, and 12, the district court instructed
the jury that to act “willfully,” the defendant must act “voluntarily and
purposely, with the specific intent to do something the law forbids, that is, with
the bad purpose either to disobey or disregard the law.” With respect to Count
28, the district court instructed the jury that it could not convict unless it found
that Stockman acted “with intent to violate a known legal duty.” We find no
merit in Stockman’s “good faith” argument.
D.
Finally, we address Stockman’s challenge to the evidence supporting his
convictions for mail fraud, wire fraud, and money laundering. 8 Stockman
argues that the district court erred when it denied his motions for judgment of
acquittal under Rule 29, contending that the government failed to prove a
fraudulent “scheme” that Stockman devised with the necessary intent to

As to the money laundering convictions, Stockman argues only that the government
cannot meet its burden to prove a predicate offense if the fraud convictions lack evidentiary
support. See 18 U.S.C. §§ 1956–57. Because we reject Stockman’s challenge to the fraud
convictions, we necessarily reject his challenge to the money laundering convictions as well.
8

14

22a

Case: 18-20780

Document: 00515267269

Page: 15

Date Filed: 01/10/2020

No. 18-20780
defraud. See 18 U.S.C. §§ 1341, 1343. We review the denial of a Rule 29 motion
de novo, asking whether “any rational trier of fact could have found the
essential elements of the crime[s] beyond a reasonable doubt.” United States
v. Xu, 599 F.3d 452, 453 (5th Cir. 2010) (quotations omitted).
The elements of mail fraud are “(1) a scheme to defraud; (2) use of the
mails to execute the scheme; and (3) the specific intent to defraud.” United
States v. Simpson, 741 F.3d 539, 547–48 (5th Cir. 2014) (quotation omitted).
The elements of wire fraud are “(1) a scheme to defraud; (2) the use of, or
causing the use of, wire communications in furtherance of the scheme; and (3)
a specific intent to defraud.” United States v. Harris, 821 F.3d 589, 598 (5th
Cir. 2016). In evaluating its sufficiency, we view the evidence in the light most
favorable to the government. United States v. Rodgers, 624 F.2d 1303, 1306
(5th Cir. 1980). Stockman challenges the evidence supporting his convictions
with respect to both the “scheme” and “intent” elements of mail and wire fraud.
1.
Challenging the denial of his Rule 29 motions, Stockman argues that the
government’s evidence does not establish a fraudulent “scheme.”

His

reasoning is somewhat tortuous. Stockman argues that, although purporting
to allege a single scheme, the indictment actually alleges “no fewer than four
separate ‘schemes.’” He further asserts that at least one of these four separate
schemes, the 2014 Uihlein “scheme,” is not supported by sufficient evidence
because the government failed to prove that in the 2014 scheme Uihlein was
deprived of money or property. Then, expressly reverting to a single-scheme
argument, he contends that, because the jury returned a general verdict
without specifying which “scheme within a scheme” it was relying on to satisfy
the “scheme” element of mail and wire fraud, all seven mail and wire fraud
convictions must be set aside for failure to prove a scheme. See Yates v. United
States, 354 U.S. 298, 311 (1957) (“[A] verdict [must] be set aside in cases where
15
23a

Case: 18-20780

Document: 00515267269

Page: 16

Date Filed: 01/10/2020

No. 18-20780
the verdict is supportable on one ground, but not on another, and it is
impossible to tell which ground the jury selected.”), overruled on other grounds
by Burks v. United States, 437 U.S. 1 (1978).
Stockman’s arguments are confected on a foundation of sand.

The

evidence shows that there was only one scheme, a scheme to separate wealthy
donors from their money and to spend that money at Stockman’s pleasure and
direction. Furthermore, there is no merit in Stockman’s argument that the
2014 Uihlein solicitations did not threaten to deprive Uihlein of money or
property. Each donation from each donor, Uihlein included, was given under
the false pretense that the donor’s money would be used for specific purposes,
including “voter education” and independent political advocacy.
was not used for those purposes.

The money

Instead, it was, at all times, under

Stockman’s control. He used it to finance his political career and sustain his
self-indulgent lifestyle. It is thus clear that all of Stockman’s solicitations were
designed to effectuate a traditional “money or property” fraud.
In short, we hold that there was no failure of proof regarding the
“scheme” element of mail and wire fraud.

On the contrary, viewing the

evidence in the light most favorable to the conviction, we find ample support
for the government’s position that Stockman orchestrated a single scheme to
appeal to the charity of politically-interested donors for fraudulent purposes.
2.
Stockman further challenges the denial of his Rule 29 motions on the
ground that the government produced insufficient evidence of Stockman’s
fraudulent intent. In this context, he argues that the government’s evidence
does not suggest a “contemporaneous” intent to defraud because evidence of
Stockman’s illicit spending cannot establish bad faith simultaneous with the
solicitation and receipt of donor funds. From this premise, Stockman concludes
that the government’s case is based on nothing more than “evidentiary time
16
24a

Case: 18-20780

Document: 00515267269

Page: 17

Date Filed: 01/10/2020

No. 18-20780
travel.” Stockman’s time-and-space argument is weakened by the absence of
evidence supporting it, but even more by the very strong evidence from which
the jury could reasonably infer that Stockman had the intent to defraud from
the time the money was donated until it was fully spent.
Stockman does not deny that, shortly after receiving donations from
Rothschild and Uihlein, he misappropriated the funds by disregarding the
purposes for which they were donated. Indeed, Stockman does little to dispute
the overwhelming evidence that, shortly after receiving it, he quickly diverted
donor money to personal and political projects having nothing to do with
philanthropy or education. Notwithstanding Stockman’s self-serving view that
later misappropriations cannot evidence earlier bad faith, the jury could
rationally have inferred Stockman’s fraudulent intent from this largely
undisputed evidence. We thus find that the government has also met its
burden with respect to the “intent” element of mail and wire fraud.
IV.
In this appeal, we have held that the district court’s instructions were
not erroneous. It was not plain error for the district court to define 501(c)(3)
and 501(c)(4) organizations in the charge, and Stockman was not entitled to an
instruction on good faith. We have also held that the district court did not err
by denying Stockman’s motions for judgment of acquittal under Rule 29. The
government provided ample evidence that Stockman fraudulently devised, and
implemented, a scheme to deprive two donors of their money and property,
thus allowing the jury to rationally find Stockman guilty of mail fraud, wire
fraud, and money laundering.

And, we have further held that FECA’s

contribution limits apply to coordinated spending on political communications,

17
25a

Case: 18-20780

Document: 00515267269

Page: 18

Date Filed: 01/10/2020

No. 18-20780
irrespective of whether those communications contain magic words of express
advocacy. We thus have affirmed Stockman’s campaign finance conviction.
In sum, the judgment of the district court is, in all respects,
AFFIRMED.

18
26a

Case: 18-20780

Document: 00515327716

27a

Page: 1

Date Filed: 03/02/2020

Case: 18-20780

Document: 00515327716

28a

Page: 2

Date Filed: 03/02/2020

Case: 18-20780

Document: 00515338325

Page: 1

Date Filed: 03/10/2020

IN THE UNITED STATES COURT OF APPEALS
United States Court of Appeals
FOR THE FIFTH CIRCUIT
Fifth Circuit
_______________________
No. 18-20780
_______________________

FILED
January 10, 2020
Lyle W. Cayce
Clerk

D.C. Docket No. 4:17-CR-116-2
UNITED STATES OF AMERICA,
Plaintiff - Appellee
v.
STEPHEN E. STOCKMAN,
Defendant - Appellant
Appeal from the United States District Court for the
Southern District of Texas
Before JOLLY, GRAVES, and HIGGINSON, Circuit Judges.
JUDGMENT
This cause was considered on the record on appeal and was argued by
counsel.
It is ordered and adjudged that the judgment of the District Court is
affirmed.

Certified as a true copy and issued
as the mandate on Mar 10, 2020
Attest:
Clerk, U.S. Court of Appeals, Fifth Circuit

29a

30a

31a

t@fficr of t~e Attarnel! ~rneral
llllns~ingfon,1B. QI. 20.5-30

April 3, 2020

MEMORANDUM FOR DIRECTOR OF BUREAU OF PRISONS
FROM:

THEATTORNEYGENERAW~

SUBJECT:

Increasing Use of Home Confinement at Institutions Most Affected by
COVID-1 9

The mission of BOP is to administer the lawful punishments that our justice system
imposes. Executing that mission imposes on us a profound obligation to protect the health and
safety ofall inmates.
Last week, I directed the Bureau of Prisons to prioritize the use of home confinement as a
tool for combatting the dangers that COVID-19 poses to our vulnerable inmates, while ensuring
we successfully discharge our duty to protect the public. I applaud the substantial steps you have
already taken on that front with respect to the vulnerable inmates who qualified for home
confinement under the pre-CARES Act standards.
As you know, we are experiencing significant levels of infection at several ofour facilities,
including FCI Oakdale, FCI Danbury, and FCI Elkton. We have to move with dispatch in using
home confinement, where appropriate, to move vulnerable inmates out of these institutions. I
would like you to give priority to these institutions, and others similarly affected, as you continue
to process the remaining inmates who are eligible for home confinement under pre-CARES Act
standards. In addition, the CARES Act now authorizes me to expand the cohort of inmates who
can be considered for home release upon my finding that emergency conditions are materially
affecting the functioning of the Bureau of Prisons. I hereby make that finding and direct that, as
detailed below, you give priority in implementing these new standards to the most vulnerable
inmates at the most affected facilities, consistent.with the guidance below.

I.

IMMEDIATELY MAXIMIZE APPROPRIATE TRANSFERS TO HOME
CONFINEMENT OF ALL APPROPRIATE INMATES HELD AT FCI OAKDALE,
FCI DANBURY, FCI ELKTON, AND AT OTHER SIMILARLY SITUATED BOP
FACILITIES WHERE COVID-19 IS MATERIALLY AFFECTING OPERATIONS

32a

Memorandum from the Attorney General
Page 2
Subject: Increasing Use of Home Confinement at Institutions Most Affected by COVID-19
While BOP has taken extensive precautions to prevent COVID-19 from entering its
facilities and infecting our inmates, those precautions, like any precautions, have not been perfectly
successful at all institutions. I am therefore directing you to immediately review all inmates who
have COVID-19 risk factors, as established by the CDC, starting with the inmates incarcerated at
FCI Oakdale, FCI Danbury, FCI Elkton, and similarly situated facilities where you determine that
COVID-19 is materially affecting operations. You should begin implementing this directive
immediately at the facilities I have specifically identified and any other facilities facing similarly
serious problems. And now that I have exercised my authority under the CARES Act, your review
should include all at-risk inmates- not only those who were previously eligible for transfer.
For all inmates whom you deem suitable candidates for home confinement, you are
directed to immediately process them for transfer and then immediately transfer them following a
14-day quarantine at an appropriate BOP facility, or, in appropriate cases subject to your case-by­
case discretion, in the residence to which the inmate is being transferred. It is vital that we not
inadvertently contribute to the spread of COVID-19 by transferring inmates from our facilities.
Your assessment of these inmates should thus be guided by the factors in my March 26
Memorandum, understanding, though, that inmates with a suitable confinement plan will generally
be appropriate candidates for home confinement rather than continued detention at institutions in
which COVID-19 is materially affecting their operations.
I also recognize that BOP has limited resources to monitor inmates on home confinement
and that the U.S. Probation Office is unable to monitor large numbers of inmates in the community.
I therefore authorize BOP to transfer inmates to home confinement even if electronic monitoring
is not available, so long as BOP determines in every such instance that doing so is appropriate and
consistent with our obligation to protect public safety.
Given the speed with which this disease has spread through the general public, it is clear
that time is of the essence. Please implement this Memorandum as quickly as possible and keep
me closely apprised of your progress.
II.

PROTECTING THE PUBLIC

While we have a solemn obligation to protect the people in BOP custody, we also have an
obligation to protect the public. That means we cannot simply release prison populations en masse
onto the streets. Doing so would pose profound risks to the public from released prisoners
engaging in additional criminal activity, potentially including violence or heinous sex offenses.
That risk is particularly acute as we combat the current pandemic. Police forces are facing
the same daunting challenges in protecting the p1;1blic that we face in protecting our inmates. It is
impossible to engage in social distancing, hand washing, and other recommend steps in the middle
of arresting a violent criminal. It is thus no surprise that many of our police officers have fallen
ill with COVID-19, with some even dying in the line of duty from the disease. This pandemic has
dramatically increased the already substantial risks facing the men and women who keep us safe,
at the same time that it has winnowed their ranks while officers recover from getting sick, or self­
quarantine to avoid possibly spreading the disease.

33a

Memorandum from the Attorney General
Page 3
Subject: Increasing Use of Home Confinement at Institutions Most Affected by COVID-19
The last thing our massively over-burdened police forces need right now is the
indiscriminate release of thousands ofprisoners onto the streets without any verification that those
prisoners will follow the laws when they are released, that they have a safe place to go where they
will not be mingling with their old criminal associates, and that they will not return to their old
ways as soon as they walk through the prison gates. Thus, while I am directing you to maximize
the use of home confinement at affected institutions, it is essential that you continue making the
careful, individualized determinations BOP makes in the typical case. Each inmate is unique and
each requires the same individualized determinations we have always made in this context.
I believe strongly that we should do everything we can to protect the inmates in our care,
but that we must do so in a careful and individualized way that remains faithful to our duty to
protect the public and the law enforcement officers who protect us all.

34a

35a

institution operations; routine staff and inmate medical
screening; use of the home confinement authority, where
appropriate, based on guidance from the Attorney General; and use
of compassionate release for appropriate inmates who have
existing terminal and debilitated medical conditions or who are
elderly and nearing the end of their sentence, as provided for in
current agency policy.
The CARES Act authorizes the Attorney General to expand the
cohort of inmates who can be considered for home confinement upon
his findings of emergency conditions which are materially
affecting the function of the BOP.
On April 3, 2020, the
Attorney General made that finding and authorized the Director of
the BOP to immediately maximize appropriate transfers to home
confinement of all appropriate inmates held at FCI Oakdale, FCI
Danbury, FCI Elton, and other similarly situated BOP facilities
where COVID-19 is materially affecting operations.
Pursuant to the Attorney's General's direction, the BOP will
continue to monitor the situation at all of its facilities, to
include FCC Beaumont, and will take swift action to exercise its
expanded home confinement authority for any inmate who is found
to be at risk for COVID-19 and suitable for home confinement.
~taff have reviewed your sentence for potential placement on home
tonfinement in connection wibH the current criteria. After
careful review, staff submitted your paperwork on April 15, 2020,
to the Residential Re-entry Center (RRC) for potential approva1:
in home confinement ~la cement.
Once the RRC makes a
determination, you will be informed of that decision.

I trust this information addresses your concern.
F\
I

~

1/

'

l-i })01~

··,,,-~.,._v?'

+v\.

I

F. J. Garrido,}j w"arden

Datl::

36a

\

'

U.S. Department of Justice
Memorandum
Federal Bureau of Prisons
Correctional Programs Branch

Central Office
320 First Street, N. W
Wash ington, DC 20534

MEMORANDUM FOR CORRECTIONAL PROGRAM ADMINISTRATORS

FROM :

SUBJECT :

~ ~~n-g"'-S~e~n-vi-o~rE/'Deputy Assistant
Director

Furlough and Home Confinement Additional Guidance

The following guidance is provided from information contained in
the CARES Act , memoranda from Attorney General Barr , and the
Bureau of Prisons.
This memorandum rescinds guidance previously
provided .
Furlough
The current pandemic is considered an urgent situation that may
warrant an emergency furlough under 570 . 32(b) (1) and 570 . 33(b) .
These regulations authorize a non-transfer emergency furlough if
the inmate is otherwise deemed appropriate , even if he/she has
been submitted for Home Confinement (HC) . Effective April 16 ,
2020 , all inmates referred for an emergency furlough due to the
Covid-19 pandemic should be submitted and keyed as FURL CRI .

Inmates who have been referred for a release planning furlough
based on guidance issued prior to April 16 , 2020 , do not require
a new application . These inmates should be keyed out of the
facility as FURL REL . Furlough applications completed on or
after April 16 , 2020 , should follow the updated guidance .
Inmates within 12 months of his/her Projected Release Date
(PRO) , or those who have received Home Confinement placement and
have a PRO exceeding one year , should be reviewed for furlough.
Home Confinement
In an effort to alleviate concerns and questions , the following
criteria should be met when reviewing and referring inmates for
HC :
• Primary or prior offense is not violent

37a

•
•
•
•
•
•
•
•

Primary or prior offense is not a sex offense
Primary or prior offense is not terrorism
No detainer
Mental Health Care Level is less than CARE - MH 4
PATTERN risk score is Minimum (R- MIN)
No incident reports in the past 12 months (regardless of
severity level)
U. S . Citizen
Viable Release Plan

If the inmate meets the criteria above , the following factors
should be noted, but are not a reason for denial :
• Age
• Projected Release Date
• Percentage of time served
• Medical Care Level
• Victim Witness Program
• Arrival dated (ARSD)
Any concerns regarding an inmate ' s suitability for HC placement
should be noted in Section 11 of the BP-210 , Institutional
Referral for CCC Placement . It is strongly encouraged to refer
inmates currently housed in a facility with active Covid- 19
cases .
For inmates requesting relocation , a release plan must be
submitted to the USPO prior to HC referral submission . The USPO
approval letter must be forwarded to the RRM , once received .
Institution staff should contact the Health Service Specialist
in the RRM ' s office with questions regarding HC placement for
inmates with medical concerns.
If you have any questions, please contact David Brewer , Acting
Senior Deputy Assistant Director , Correctional Programs
Division , at (20 2 )353 - 3638.

38a

DECLARATION OF PATTI STOCKMAN
I, Patti Stockman, hereby declare and state as follows:
1.

I am over 18 years of age, and I reside in Friendswood, Texas.

2.

I am married to the applicant Steven E. Stockman and have power of

attorney over his affairs. We were married in December 1988. From my close
relationship with my husband over 31 years, I am familiar with the personal
information about him in this declaration.
3.

My husband is a U.S. citizen.

4.

There is no detainer against my husband by any other law-enforcement

agency.
5.

Mr. Stockman has had no incident reports during his incarceration.

6.

Because of my deepest concern over my husband’s exposure to COVID-

19 and his increased risk from infection (discussed below), I have monitored the
reported COVID-19 exposures at FCC Beaumont, where he is incarcerated. On or
about June 30, 2020, the Bureau of Prisons (“BOP”) reported 5 COVID-19 cases at
the facility, but by July 5, 2020, there were 41 cases. I understand from speaking with
others involved with FCC Beaumont that there may be at least an additional 9 cases
about to be reported.
7.

I am not familiar with the “Mental Health Care Level” used by the

federal government, but my husband has no mental-health issues.
8.

My husband’s PATTERN risk score is Minimum.

9.

My husband is 63 years old and suffers from diabetes, high blood

pressure, mild asthma, a weakened immune system from multiple intestinal

39a

surgeries, and other health challenges. He is obese (approximately 5’, 9” tall and 225230 pounds).
10.

My husband takes several prescriptions for his health conditions,

including metFORMIN HCL 850, Glucose 4 GM, Cyanocoblamin 1000 MCG,
OXcarbazepine 150 MG, MPH insulin, regular insulin, Chorlecalciferol, Folic Acid
400 MCG, Atorvastatin 1 OMG, Calcium Carbonate 500MG, Atenolol 25 MG,
glipiZIDE 5 MG, and Lisinopril 20 MG. He also should be taking zinc supplements,
but FCC Beaumont has not filled that prescription since February.
11.

My husband is currently carried on my Blue Cross/Blue Shield health

care plan through work.
12.

My husband would shelter in place with me at our three-bedroom home

in Friendswood, TX, where I am not aware of any reported problem with COVID-19.
If necessary, my husband could be quarantined in our home in a separate bedroom
and bathroom.
13.

I work remotely from home as a GS-14 Records and Privacy Act Officer

for a federal agency, and my income is adequate to support both myself and my
husband.
14.

From my husband’s past employment experience and given the

suitability of our home for remote work, my husband could earn income by working
as an accountant and a consultant.
15.

On June 30, 2020, I contacted the regional BOP office in Grand Prairie,

Texas, for an explanation why my husband had not yet been transferred to home

40a

41a

DECLARATION OF LAWRENCE J. JOSEPH
I, Lawrence J. Joseph, hereby declare and state as follows:
1.

I am over 18 years of age, and I reside in McLean, Virginia.

2.

As

of

today,

the

COVID-19

pandemic

has

reportedly

killed

approximately 130,000 Americans according to U.S. government data reported at
https://www.cdc.gov/coronavirus/2019-ncov/cases-updates/us-cases-deaths.html.
3.

I have offered to represent Mr. Stockman in filing a petition for a writ of

certiorari by July 30, 2020, although I recommended that he seek better-known
counsel to serve as counsel of record. I mostly work through Mr. Stockman’s wife –
who has power of attorney over his affairs – because I have been unable to reach Mr.
Stockman through the Bureau of Prisons (“BOP”). It would help immeasurably to
assist Mr. Stockman if he had access to a telephone and email; that would enable him
not only to attempt to secure better counsel but also to assist in the preparation of
his petition to this Court.
4.

On information and belief, formed after reasonable inquiry, FCC

Beaumont has converted its law library into a quarantine staging area.
5.

It has proven impossible to reach Mr. Stockman via his BOP counselor

or case worker. I attempted to arrange an attorney-client call through a BOP
counselor by emails dated June 30 and July 2, 2020 but did not receive a response.
6.

I would have preferred to have Mr. Stockman enter a declaration in

support of this application, but he is simply unavailable through BOP.
7.

On information and belief formed after reasonable inquiry, all other

prisoners at FCC Beaumont’s minimum-security satellite camp with comparable risk

42a

factors for COVID-19 have already been transferred to home confinement or been
given other, more favorable treatment.
8.

I have reviewed the docket for United States v. Ferguson, No. 4:12-cr-

00600 (S.D. Tex.), and the sealed motion granting Mr. Ferguson’s alteration in
sentence pursuant to 18 U.S.C. § 3582(c)(1)(A) was apparently filed on June 21, 2020
(ECF #882) and granted on July 3, 2020 via an unsealed Memorandum and Order
Granting Compassionate Release (ECF #897).
9.

I filed a materially identical version of the accompanying application,

with the e-filing complete circa 10:45 a.m. on July 7, 2020, the filing emailed to
opposing counsel at 10:45 a.m. on July 7, 2020, and the paper copies delivered to the
Court at 12:53 p.m. on July 7, 2020. Other than the final three paragraphs of this
declaration, the addition of the introductory section on why this Court’s Rule 23.3
does not bar the relief requested, updating the further spiking of COVID-19 infections
at the FCC Beaumont camp where Mr. Stockman is incarcerated, and requesting
exigent treatment in the Relief Requested, the application has not materially changed
from the version emailed to opposing counsel in connection with the initial filing. In
a phone conversation on the evening of July 9, 2020, Mara Silver of the Clerk’s Office
indicated that the application could not be filed because Mr. Stockman had not sought
relief below, analogizing the situation to seeking bail from the Supreme Court.
10.

On the early morning of July 9, 2020, the BOP website showed 80

inmates infected with COVID-19 – plus one staff member infected – at FCC
Beaumont’s low-security camp where Mr. Stockman is incarcerated.

43a

11.

I have reviewed the docket for United States v. Stockman, No. 18-20780

(5th Cir.), which shows the following entry for March 10, 2020: “MANDATE ISSUED.
Mandate issue date satisfied. [18-20780] (NFD) [Entered: 03/10/2020 08:33 AM].”
I declare under penalty of perjury that the foregoing is true and correct of my
personal knowledge, which I believe to be true and if called as a witness I would be
competent to testify thereto. Executed on this 9th day of July 2020.

/s/ Lawrence J. Joseph
__________________________
Lawrence J. Joseph

44a

